IN THE SUPREME COURT OF THE UNITED STATES

OCTOBER TERM, 2020

BULMARO CONTRERAS-FIGUEROA,
aka, Israel Contreras,
PETITIONER,
VS.

UNITED STATES OF AMERICA,
RESPONDENT.

MOTION TO PROCEED IN FORMA PAUPERIS

Pursuant to Title 28, United States Code, § 1915(a) and Rule 39 of this Court, applicant
asks for leave to file the Petition for Writ of Certiorari to the Ninth Circuit Court of Appeals
without prepayment of fees or costs in forma pauperis.

The undersigned counsel was appointed pursuant to 18 U.S.C. § 3006A. Therefore, it is
requested that the Court grant leave to file the Petition for Writ of Certiorari without prepayment
of fees or costs in forma pauperis.

I declare under penalty of perjury under the laws of the United States of American, the
foregoing is true and correct.

Dated this 21st day of April, 2021.

 
 
  
      

Respectfully Submitted,

 

Stephen RK. Hormel, Hofmel Law Officé LLC
17722 East Sprague Avenue
Spokane Valley, WA 99016
Telephone: (509) 926-5177
Facsimile: (509) 926-4318

 
